     Department of Health and Human Services
             OFFICE OF 

        INSPECTOR GENERAL 





     Controlling    Medicaid Non-Emergency
                Transportation Costs




                         JUNE GIBBS BROWN
                         Inspector General

                              April 1997
                            OEI-O4-95-00140 

I

                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95
452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management problems and recommends legislative, regulatory, and
operational approaches to correct them.


                        Office of Evaluationand Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the 

Office of Inspector General. It conducts short-term management and program 

evaluations (called inspections) that focus on issues of concern to the Department, the 

Congress, and the public. The inspection reports provide findings and 

recommendations on the efficiency, vulnerability, and effectiveness of departmental 

programs. 


OEI’s Atlanta Regional Office prepared this report under the direction of Jesse J. 

Flowers, Regional Inspector General, and Christopher Koehler, Deputy Regional 

Inspector General. Principal OEI staff included: 


REGION                                               HEADQUARTERS 


Jacqueline Watkins, Project Leader                   Winnie Walker, Program Specialist
Betty Apt, Team Leader 

Josiah Townsel, ProgramAnalyst 





To obtain a copy of this report, call the Atlanta Regional Office at 404-730-9452.
              EXECUTIVE                         SUMMARY

PURPOSE

To identify and describe effective practices for controlling non-emergency
transportation costs in the Medicaid program.

BACKGROUND

The U.S. Health Care Financing Administration estimated that nationally non-
emergency transportation costs increased 10 percent per year from 1990 until 1995.
Some individual States reported that their non-emergency transportation costs
increased substantially more. For example, one State reported a 250 percent increase
in 4 years, another a 230 percent increase in only one year, and another a 136 percent
increase in two years.

,We used a case study method to identify and describe practices for controlling
Medicaid non-emergency transportation costs. We selected programs in Miami,
Florida; Philadelphia, Pennsylvania; Louisiana, and Washington for review. Various
 experts recommended these Medicaid programs for case study because they were
unique cost saving programs, and had significantly reduced or maintained low non-
 emergency transportation costs over several years.

FINDINGS

selected case study pnqrams reported significant sav@sjk~m   conbdkg    non-emergency
tranqmation cosfs.

Each of the four programs we studied reported that savings can result from controlling
non-emergency transportation costs. For example, Louisiana reported reductions in
non-emergency transportation costs of $52 million in 1 year. Miami, Florida claims to
have decreased average Medicaid non-emergency transportation costs per beneficiary
from $630 per month to $30 per month in two years. Washington State and
Philadelphia, Pennsylvania reported increases of less than 8 percent per year during an
8 year period.

--4Y       prqpms fmuwdcontrol@OHSon the kin& of fraud and abuse which were
most&~tom~

       --people who have other means of transportation, 

       --unnecessary trips, 

       --excessive claims, and 

       --trips claimed, but not made by providers. 





                                            i
cast? st@y pqpm     aiko reduced rwn-tmmgency .tmnsp~tion      costs by uring least costly
tram

Each program we surveyed used the least costly mode of non-emergency 

transportation available. Even in instances where the freedom of choice provision of 

the Medicaid law applied, States offered beneficiaries a choice among the lowest cost 

providers. The freedom of choice provision of the Medicaid law states that 

beneficiaries have a right to choose their provider of services. 


States that claimed Federal reimbursement for non-emergency transportation as an 

administrative expense did not have to adhere to the freedom of choice provision. In 

addition, States can obtain a waiver of the freedom of choice provision from the 

Health Care Financing Administration. 


Using b&em may help contd      carts.

Our case study programs use brokers as intermediaries to assure that transportation      is
necessary. Such brokers have a contractual incentive to control costs.

RECOMMENDATIONS

We recommend that HCFA advise States of opportunities to establish controls to
reduce costs for non-emergency transportation.   Most States could adopt practices
similar to those used by the case study programs described in this report. We cannot
accurately estimate the precise amount that could be saved. However, this is a
program with over $1 billion in expenditures. If all States adopted practices similar to
those used by the case study programs, substantial savings could be achieved.

AGENCY     COMMENTS

The HCFA Administrator concurred with our recommendations.         He stated that the 

report recommendations are consistent with existing HCFA activities. The HCFA 

established a Non-Emergency Transportation Technical Advisory Group comprised of 

State and Federal Medicaid staff. The group is currently developing recommendations 

for HCFA and the Executive Committee of the National Association of State 

Medicaid Directors on a wide range of issues, including those in our report. He 

believes that their recommendations will facilitate the changes we seek. 


The Principal Deputy Assistant Secretary for Planning and Evaluation     (ASPE) also 

concurred with our recommendations. 

                       TABLE                           OF CONTENTS

                                                                                                PAGE 


ExEmnwEsuMMARY 


INTRODUCTION..                  ...............................................                      1


FINDINGS       ......................................................                                4


   Significant savings realized                  ........................................            4


   Focus on problem areas ..........................................                                 5


   Using least costly providers                    .......................................           7


   Brokers       .....................................................                               9


RECOMMENDATIONS                        ...........................................                  11 


AGENCYCOMMENTS                         ...........................................                  12 


APPENDIX 


   Full Text of Agency Comments                            ..................................     A-l
                         INTRODUCTION

PURPOSE

To identify and describe effective practices for controlling non-emergency
transportation costs in the Medicaid program.

BACKGROUND

Medicaid Non-EmergencyTransportationServices

Federal regulation 42 CFR 431.53 requires all States that receive Federal Medicaid
funds to assure transportation for Medicaid beneficiaries to and from medical
appointments.    A description of the method of providing transportation must be
included in State Medicaid plans.

The way in which States manage non-emergency transportation services varies. Some
States use regional offices while others use local agencies. An increasingly popular
way to manage non-emergency transportation is through contracts with separate
entities, commonly referred to as brokers.

States can elect to claim Federal reimbursement for Medicaid non-emergency
transportation as either an optional medical or administrative expense. There are
three major distinctions between claiming non-emergency transportation as an optional
medical expense versus an administrative expense. First, States that claim non-
emergency transportation services as an optional medical expense are required to
make direct payments to transportation providers. In contrast, States that claim non-
emergency transportation as an administrative expense may pay a broker who, in turn,
pays the transportation provider.

Second, States that claim non-emergency transportation services as an optional
medical expense are reimbursed for transportation expenses at a State’s Federal
financial participation rate for medical expenses--50 to 83 percent of their medical
expenses. States that claim non-emergency transportation services as an administrative
expense are always reimbursed at the administrative rate of 50 percent of their
administrative expenses.

Third, States that claim non-emergency transportation as an optional medical expense
must give beneficiaries a right to choose their provider of services. The right to
choose a transportation provider is granted by a provision of the Medicaid law
referred to as freedom of choice. States that claim non-emergency transportation as
an administrative expense do not have to give beneficiaries a choice of transportation
providers.
Rising Costs of Non-EmergencyTransportationServices

The Health Care Financing Administration (HCFA) estimates that non-emergency 

transportation expenditures total 1 percent of all Medicaid program costs, or about $1 

billion in 1995. The HCFA also estimated that nationally non-emergency 

transportation costs increased 10 percent per year from 1990 until 1995’. 


Some individual States reported that their non-emergency transportation costs 

increased substantially more. For example, Louisiana costs increased from $20 million 

in 1990 to $72 million in 1994--a 250 percent increase in 4 years. Georgia’s 

expenditures increased from $3 million in 1993 to $10 million in 1994--a 230 percent 

increase in only one year. Indiana’s costs increased from $19 million in 1990 to $45 

million in 1992--a 136 percent increase in two years. 


States report that fraud and abuse by providers and beneficiaries contributes to the 

increased costs. The major types of fraud and abuse reported include providers billing 

Medicaid for more miles than they actually provide, providers billing Medicaid for 

trips they did not provide, and beneficiaries using Medicaid transportation when they 

have other means of transportation to a medical appointment.     Other problems such 

as unnecessary trips and use of the most costly mode of transportation have also 

contributed to the increasing cost of non-emergency transportation. 


Increasing costs and allegations of fraud and abuse have led some members of the 

Congress to consider eliminating non-emergency transportation as a covered Medicaid 

service. 


In addition, HCFA has been concerned about the increasing non-emergency 

transportation cost. In November 1994, HCFA created a Medicaid Transportation 

Technical Advisory Group to identify ways to more efficiently and effectively provide 

Medicaid transportation services. The technical advisory group includes Federal and 

State members who meet regularly. 


Finally, States are seeking ways to reduce non-emergency transportation costs. They 

have an ever increasing number of Medicaid beneficiaries placing demands on their 

already strained budgets. Therefore, States are analyzing their programs to identify 

more cost efficient ways to provide non-emergency transportation.    Likewise, States 

are intensifying their scrutiny of non-emergency transportation claims. 





         ‘HCFA can only estimate the percent increase because they do not collect cost data from
States specifically for non-emergency transportation.


                                                  2
SCOPE AND METHODOLOGY 


We used a case study method to identify and describe practices for controlling 

Medicaid non-emergency transportation costs. We selected programs in Miami, 

Florida; Philadelphia, Pennsylvania; Louisiana, and Washington for revied. 


In selecting four programs for case study, we consulted with various experts on non-

emergency transportation.   We consulted with HCFA, the American Public Welfare 

Association (APWA), and Ecosometrics, Inc. Ecosometrics completed a national 

study on non-emergency transportation for HCFA in 1994. The experts recommended 

these Medicaid programs for case study because they were unique cost saving 

programs, and had significantly reduced or maintained low non-emergency 

transportation costs over several years. We also consulted with HCFA’s Technical 

Advisory Group for Medicaid transportation to identify pertinent issues to consider in 

our study. 


We conducted on-site visits to each selected program. We interviewed program 

officials and staff using a standardized discussion guide. We also reviewed applicable 

program policies, procedures, and records. 


We obtained savings data directly from the case study programs. We did not 

independently verify the data, and we limited our discussion to those practices that the 

case study programs reported were effective. We did not collect administrative costs 

of the practices States used. Use of the case study method does not enable us to 

generalize how much other programs can save by adopting our study results or what 

their administrative costs would be. But, the study results can provide insight to States 

on effective practices to develop and improve their non-emergency transportation 

programs. 




We conducted this inspection in accordance with the Quality Standards for Inspections 

issued by the President’s Council on Integrity and Efficiency. 





        ‘The Miami metropolitan area includesMonroe and Dade counties. Philadelphia includes
Philadelphia county.


                                                3
                                FINDINGS 


CASE STUDY PROGRAMS REPORTED SIGNIFICANT SAVINGS THROUGH
CONTROLLING NON-EMERGENCY  TRANSPORTATION COSTS

Each of the four Medicaid programs we inspected reported that they had operated 

cost effective non-emergency transportation programs in recent years. Two of the four 

reported significant reductions in their non-emergency transportation cost. The 

remaining two reported constantly keeping non-emergency transportation cost low. 


The two Medicaid programs that reported significant reductions in non-emergency 

transportation costs are Louisiana and Miami, Florida. 


In 1991, non-emergency transportation costs in Louisiana were $20 million. By the 

end of 1994, the costs had increased to $70 million--a 250 percent increase in 4 years. 

To detect and prevent fraudulent and abusive practices in non-emergency 

transportation, Louisiana implemented program controls in 1994. The Louisiana 

legislature supported the State Medicaid agency’s actions to implement such controls. 

Further, to ensure that controls were enforced, the legislature reduced funding for 

Medicaid transportation to $28 million in Fiscal Year 1995. As a result, Louisiana 

reduced non-emergency transportation costs from $72 million in 1994 to $18 million in 

1995. This was a $54 million decrease in 1 year. 


Miami, Florida substantially reduced its non-emergency transportation cost in a similar 

manner. In 1993, non-emergency transportation cost the Miami, Florida Medicaid 

program $630 per beneficiary per month. By the end of 1995, non-emergency 

transportation costs per beneficiary had decreased to $30 per month. During the 3 

year period, the Miami, Florida ‘Medicaid staff reported saving over $6 million. 

According to the Miami program administrator, their Medicaid budget would have 

increased by $6 million during this time period had they not been able to reduce the 

costs of non-emergency transportation. 


The two Medicaid programs that reported constantly keeping non-emergency 

transportation costs low are the State of Washington and Philadelphia, Pennsylvania. 

Both Washington State, and Philadelphia, Pennsylvania Medicaid staffs said they have 

had program controls in place to prevent fraudulent and abusive practices in non-

emergency transportation for the last 8 years. 


Washington reported that in 1985 their costs for non-emergency transportation was 

about $4 million. In 1993, their non-emergency transportation cost had increased to 

only $15 million--an $11 million increase in 8 years. 


Similarly, Philadelphia, Pennsylvania reported non-emergency transportation cost of 

about $10 million in Fiscal Year 1986. In Fiscal Year 1994, the cost had increased to 

$14 million--a $4 million increase in 8 years. 



                                            4
CASE STUDY PROGRAMS FOCUSED CONTROL EFFORTS ON THE KINDS
OF FRAUD AND ABUSE WHICH WERE MOST LIKELY TO OCCUR

People who Have OtherM&zns of ll-aetion

According to HCFA regulations, persons who have other means of transportation are
not eligible for Medicaid transportation.   States should use all available sources of free
transportation services, such as relatives and friends, before authorizing non-
emergency transportation payments.

The four Medicaid programs we inspected each had controls to verify that Medicaid
beneficiaries had no other means of transportation.  For example, each of the four
programs used transportation brokers to manage non-emergency transportation for
Medicaid beneficiaries. When a beneficiary contacts a broker for non-emergency
transportation, the broker makes several tests before authorizing non-emergency
transportation.  The broker checks computerized beneficiary records to verify that they
are eligible for Medicaid services.

When a beneficiary calls for transportation, the broker asks a series of questions
designed to ascertain whether or not beneficiaries have access to other transportation.
Computerized software programs are designed to prompt broker personnel on the
types of questions to ask. For example, a broker might ask questions such as the
following. How do you usually get to the grocery store? Do you live with other
people, and do the other people have a car ? Have you contacted your friends and
relatives for help in getting to your medical appointment?   When such controls
indicate that a beneficiary does have access to other transportation, non-emergency
transportation is denied. The beneficiary is advised to use those sources.

Three of the four Medicaid programs we inspected screen for such information each
time a beneficiary asks for help with transportation.   The other program screens for
such information during a beneficiary’s initial request for transportation. Thereafter,
the broker assumes that a beneficiary’s status has not changed unless the beneficiary
presents new information.



The four programs we inspected had implemented controls to prevent payment of
claims for unnecessary trips and excessive claims. Three of the four programs used
trip sheets to match against authorized trips. One program used an authorization
control number to match against authorized trips.

Use Of Trip Sheets: The Miami, Florida, Philadelphia,    Pennsylvania and Washington
State Medicaid programs used trip sheets to help prevent unauthorized trips. A trip
sheet is a record that brokers require providers to keep. It shows beneficiary name
and address, destination address, beginning and ending odometer reading, and pick-up



                                             5

and drop-off times. The trip sheet is either submitted with a claim, or serves as the 

actual claim for payment. 


The Medicaid programs we inspected used trip sheets to identify providers who bill 

Medicaid for unauthorized trips. When a Medicaid beneficiary calls to obtain non-

emergency transportation, a broker either authorizes or denies the trip. If the trip is 

authorized, it is added to a computerized list of authorized trips. When a provider 

submits the trip sheet and claim for payment, the broker matches it to the list of 

authorized trips. If it does not match, payment is denied. 


Trip sheets are also used to detect providers who bill for more miles than they actually 

provide. Before paying a claim, brokers examine odometer readings on the trip sheets 

to assure that providers do not bill for excessive mileage. 


The Medicaid programs admitted that it is difficult to precisely verify mileage from 

one destination to another. However, their brokers told us that the trip sheets are 

reviewed by staff who know the geographic area. Further, by repeatedly reviewing trip 

sheets, the staff become familiar with the distance from one destination to another. In 

instances where the distance appears excessive, the provider is questioned and the 

payment may be adjusted. One broker in Washington State is experimenting with a 

computer program that actually calculates the mileage from one destination to 

another. Then they can compare the mileage on provider claims to that calculated by 

the computer. 


Use Of Prior AuthorizationNumbers: Louisiana prevents payment for unauthorized 

trips by assigning a unique prior authorization number to each authorized trip. When 

a trip is authorized, the broker gives a transportation provider a prior authorization 

number. The broker then sends all prior authorization numbers to the claims payment 

center. When a provider submits a claim for payment, the claim must show the prior 

authorization number. The payment center matches the prior authorization number 

on the claim to the prior authorization number assigned by the broker. If the prior 

authorization numbers do not match, the claim will not be paid. 


lXps Not l+wided

All of the Medicaid programs we inspected have established controls to identify
unethical providers who bill for trips not provided. The Medicaid programs required
brokers to routinely call a random sample of medical providers to verify that patients
received medical care on the same day that trips were authorized.

To illustrate, one broker in Washington State verified 15 percent of the trips each day
by calling medical providers. In instances where the appropriate medical providers did
not have a record of a beneficiary receiving a medical service, the broker was required
to deny payment, or in instances where payment had already been made, initiate
action to recover it. Usually, this involved sending a letter to the non-emergency
transportation provider demanding reimbursement of the payment.


                                             6
The brokers for the Miami, Florida program operate a similar control. The broker
had a listing of health providers that they call regularly to verify that beneficiaries had
and kept medical appointments.     The health providers they called were family health
centers, mental health agencies, and AIDS programs.

CASE STUDY PROGRAMS ALSO REDUCED NON-EMERGENCY
TRANSPORTATION COSTS BY USING LEAST ColFTLY TRANSPORTATION

According to HCFA regulations, States must use the least costly means of 

transportation when multiple methods exist. All of the programs we inspected 

adhered to the policy. Each program had established criteria for determining the least 

costly mode of non-emergency transportation.      The criteria, in priority order, was to 

authorize non-emergency transportation from (1) family and friends who are willing to 

provide non-emergency transportation for reimbursement, (2) available public 

transportation, (3) available non-profit providers, and (4) available for-profit providers. 

Non-profit and for-profit providers are typically vans and taxis. Vans equipped to 

provide rides to wheelchair bound beneficiaries are usually reimbursed at a higher 

rate. 


Typically, when a beneficiary calls a broker for transportation,     the broker will ask the 

beneficiary if they have family or friends that can provide the     transportation or if they 

live on a bus line. If not, the broker will ask them to choose     between available non-

profit providers. For-profit providers will only be used when      non-profit providers are 

not available. 


The following two examples illustrate the need for using the least costly transportation. 

Prior to 1994, Louisiana largely used the more costly modes of transportation.    In 

1994, an audit of Louisiana’s program showed that for-profit providers received 99.6 

percent of all non-emergency transportation reimbursements in 1993. This is the 

highest cost type of provider. The audit further stated that most unnecessary non-

emergency transportation cost resulted from using the most costly sources of non-

emergency transportation.    Following the audit, Louisiana started determining the least 

costly mode of transportation before authorizing non-emergency transportation.      As a 

result of this and other program changes, non-emergency transportation costs 

decreased from $72 million in 1994 to $18 million in 1995--a $54 million decrease in 

one year. 


Likewise, in 1993 the Miami, Florida program reduced its non-emergency 

transportation costs by using the least costly method of transportation.  Miami, Florida 

began a program, referred to as the Metropass program. Under Metropass, public 

transportation bus passes are issued by the State to Medicaid beneficiaries for non-

emergency transportation. 


The Metropass program targets beneficiaries who have three or more medical 

appointments a month. Three appointments would normally cost the program $90 

whereas, a monthly bus pass only costs $30. In instances where such transportation 



                                              7
was not readily available or accessible for beneficiaries,   other forms of transportation
was authorized.

Freedom of Choice l+rwisbn does not have to hit        Statesabilityto use leastco&y
bzlrlsetion

The freedom of choice provision of the Medicaid law states that beneficiaries have a
right to chose their provider of services when Federal reimbursement for Medicaid
services are claimed as a medical expense. Therefore, States that claim non-
emergency transportation as an optional medical expense must adhere to the freedom
of choice provision.

Two of our selected Medicaid programs, Miami, Florida, and Louisiana, claim Federal
reimbursement for non-emergency transportation as an optional medical expense.
Both programs demonstrated that adhering to the freedom of choice provision does
not limit their ability to use low cost transportation.

Freedom of choice does not require a State to provide transportation at unusual or
exceptional costs to meet a recipient’s personal choice of provider. Louisiana and
Miami, Florida used this exception to the freedom of choice provision to use low cost
transportation and reduce their non-emergency transportation costs. To illustrate,
Louisiana offers beneficiaries a choice, however, the choice is among the lowest cost
providers. A beneficiary in Louisiana would have to choose among a non-profit
provider before choosing among a for-profit provider.

In Miami, Florida, a beneficiary must use public transportation if it is most cost
effective for the Medicaid program. They cannot use a for-profit or non-profit
provider if public transportation is available in their area. Again, the Medicaid
beneficiary has a choice, but they still must use the lowest cost transportation
available.

Statescan limiijkedom of choice by ckning          Federal rebnb rmsementfor iwn-ernegyncy
trmqmtation as an adininktrative erperse

Two of our selected Medicaid programs, Philadelphia, Pennsylvania and Washington,
chose to claim Federal reimbursement for non-emergency transportation as an
administrative expense. Both programs do not have to adhere to the freedom of
choice provision. They can reduce costs by contracting with only low cost providers.
They can choose the type of transportation and the transportation providers who will
provide the services.

However, the extent of potential savings from claiming non-emergency transportation,
as an administrative expense may or may not offset future losses in Federal revenue.
For example, Louisiana chose to treat non-emergency transportation as an optional
medical expense because they receive a Federal matching rate of 75 percent for
medical services. If they changed the way they treat non-emergency transportation to


                                               8
an administrative expense, they would only receive a Federal matching rate of 50
percent. Therefore, Louisiana may or may not realize significant savings by claiming
non-emergency transportation as an administrative expense.

In contrast, Philadelphia, Pennsylvania and Washington State’s Federal matching rates
for Medicaid medical services are 56 percent and 54 percent, respectively. By
choosing to treat non-emergency transportation as an administrative expense, they
receive a 50 percent Federal matching rate which is only slightly lower than their
Federal matching rate for medical services. These Medicaid programs believe the loss
in Federal matching funds is offset by savings in programs costs.

States can obtain a waiver of the freti          of choice pnnkim        to have greaterwiliiy   in
usingleart cxmly tnlrLY~tio?l

States that claim Federal reimbursement for non-emergency transportation as an
optional medical expense can also reduce costs by obtaining a waiver of the freedom
of choice provision. By obtaining a freedom of choice waiver, States are not required
to give beneficiaries a right to choose their provider of transportation services. Such
programs can choose what types of transportation they will provide and who will
provide transportation service to Medicaid beneficiaries. A freedom of choice waiver
allows Medicaid programs to control costs by having more flexibility to contract with
low-cost non-emergency transportation providers, while maintaining their higher
Federal matching rate.

According to HCFA, only three States currently have a freedom of choice waiver.
The freedom of choice waiver is contingent upon Federal approval. Medicaid
programs must demonstrate that their transportation methods do not limit beneficiary
accessibility to Medicaid services.

USING BROKERS MAY HELP CONTROL CGS’IS

The four Medicaid programs we ins ected used brokers to help manage their non-
emergency transportation programs P. Brokers are contractors who may be private or
public organizations. The Medicaid programs we inspected contracted with one or
several brokers who managed non-emergency transportation on a regional or county
basis. Medicaid staffs in the four programs we inspected told us brokers can help
control costs. The brokers, they said, have a contractual obligation to keep costs at a
specified level--an incentive to control cost.

Washington State, for example, reported significant cost savings from using brokers.
In 1990, Washington Medicaid staff compared non-emergency transportation costs
against what it would have cost under a pre-broker system in 1988. The comparison




       31n Louisiana, the brokers are referred to as dispatch offices.


                                                    9
showed that given the same number of trips, non-emergency transportation       would
have cost $3.7 million more under the pre-broker system in 1988.

Major Advantages of Using Brokers

Staff of the four programs we inspected cited several advantages to using brokers to
manage non-emergency transportation.     First, brokers are intermediaries to assure that
transportation is necessary. The four Medicaid programs we inspected used brokers
to schedule appointments for trips. They require Medicaid beneficiaries to schedule
non-emergency transportation through a broker rather than a transportation provider.
By scheduling trip appointments through brokers, they assure that trips requested by
beneficiaries are necessary before giving approval and scheduling the trip with a
provider. In contrast, when a beneficiary asks a provider directly for non-emergency
transportation, unethical providers have an opportunity to provide the transportation
whether or not it is needed. Further, unethical providers may solicit transportation
business from beneficiaries who do not need it.

Second, brokers who manage non-emergency transportation at local levels typically
know the transportation resources, conditions, and beneficiary needs.

Third, brokers usually have expertise in providing transportation services. They can
use their experience to determine the most cost-effective mode of transportation.
Many brokers are social service agencies that have experience in arranging trips. For
example, the Philadelphia broker existed many years as a volunteer transportation
organization.

Fourth, brokers have flexibility to develop cost-saving ways of providing transportation.
For example, a broker in Washington State is developing a system by which they give
beneficiaries gas vouchers, and gas stations bill the broker.

Major Diwdvwge       of Using Brdxm

Staff at the four programs we inspected cited one potential disadvantage of using
brokers to manage non-emergency transportation.       They noted that some brokers may
also be in the transportation business, or have relatives and close friends in the
business. In such instances, an unethical broker has an opportunity to assign non-
emergency transportation business to their own company, or that of a friend or
relative. If so, the non-emergency transportation provider may not be the least costly
provider. Only one non-emergency Medicaid transportation program we inspected
said they had experienced this problem to a great extent. In this instance, the
Medicaid program staff said they resolved the problem by immediately discontinuing
use of the abusive brokers involved. The other three Medicaid programs we inspected
said they had not experienced this problem to any great extent.




                                            10 

                    RECOMM.ENDATIONS

We recommend that HCFA advise States of opportunities           to reduce expenditures   for
non-emergency transportation. Specifically, to

              focus efforts and establish controls on the kinds of fraud
              and abuse which are most likely to occur,

              use least costly transportation,     and

              use brokers where appropriate         to help manage non-
              emergency transportation.

We also recommend that HCFA advise States of their options for using less costly 

transportation methods. Two of the States we surveyed demonstrated that 

opportunities exist to use less costly transportation methods while still adhering to the 

freedom of choice provision. States can avoid constraints of the freedom of choice 

provision by electing to claim Federal reimbursement for non-emergency 

transportation as an administrative expense. In addition, States can get a waiver of 

the freedom of choice provision. 


Most States could adopt practices similar to those used by the case study programs 

described in this report. We cannot accurately estimate the precise amount that could 

be saved because we did not independently verify the savings data, we did not collect 

administrative cost data for the case study programs, and we do not know what 

progress other States have made in controlling costs. However, this is a program with 

over $1 billion in expenditures. If all States adopted practices similar to those used by 

the case study programs, we believe substantial savings could be achieved. 





                                                 11 

                    AGENCY                   COMMENTS

The HCFA Administrator      concurred with our recommendations.          He stated that the 

report recommendations    are consistent with existing HCFA activities. The HCFA 

established a Non-Emergency      Transportation     Technical Advisory Group comprised of 

State and Federal Medicaid staff. The group is currently developing recommendations 

for HCFA and the Executive Committee           of the National Association of State 

Medicaid Directors on a wide range of issues, including those in our report.         He 

believes that their recommendations     will facilitate changes we seek. 


In response   to HCFA’s   technical   comments,     we made appropriate     revisions    to the 

report. 


The Principal Deputy Assistant Secretary for Planning and Evaluation (ASPE) 

conditionally concurred with our recommendations.       In the draft report, we roughly 

estimated that if all States adopted practices similar to our case study programs, the 

Medicaid program could save $100 million per year. The ASPE comments challenged 

the accuracy of this estimate and recommended      that it not be included in the report. 

We agree that this was, at best, a rough estimate.    We had only intended to illustrate 

in broad terms the potential for savings. We removed the savings estimate of $100 

million and substituted general language indicating the potential for savings. 


The full text of HCFA     and ASPE comments          are provided   in Appendix   A. 





                                                  12 

           APPENDIXA 





AGENCY   COMMENTS   ON THE DRAFI’ REPORT 





                    A-l
        DEPARTMENT     OF HEALTH   & HUMAN      SERVICES                    Health Care Financing Administration



                                                                            The Administrator
                                                                            Washington, D.C.    20201




DATE:          FEB I 3 1997
TO: 	         June Gibbs Brown
              Inspector General
                                         n

FROM:


SUBJECT: 	 Office of Inspector General (OIG) Draft Report: “Controlling Medicaid
           Non-Emergency Transportation Costs,” (OEI-04-95-00 140)


We reviewed the above-referenced report that describes effective practices for controlling
non-emergency transportation costs in the Medicaid program. The report
recommendations are consistent with existing Health Care Financing Administration
(HCFA) activities that have already been initiated in this area. HCFA established a Non-
Emergency Transportation (NET) Technical Advisory Group (TAG) comprised of state
and Federal Medicaid staff. The TAG is currently developing recommendations to
HCFA and the Executive Committee of the National Association of State Medicaid
Directors that will address a wide range of issues, including those in the subject report.
We believe the tidings of this group will be the ideal instrument to facilitate the
necessary changes we all seek. Our detailed comments are attached.

Thank you for the opportunity to review and comment on this report.

Attachment

                                         EIG      ­
                                         iii:     =
                                         DIG-AS

                                         EE     ZE
                                         DIG-01
                                         DIG-W =
                                                . .
                          th Care Financing:
                         on Office of bnector G-1     (OIG) Draft
                                   on-Em,ergency SET)                     Costs, >,
                                   PI B04 B95s00140’1



OIG Recp

o 	HCFA should advise states of opportunities to reduce expenditures for non-emergency
   transportation.

o 	HCFA should advise states of their options for using less costly transportation
                                                             .
methods.

HCFAResm
HCFA concurs. The report recommendations are consistent with existing HCFA
activities that have already been initiated in this area. HCFA worked with the states to
ensure the positive developments outlined below.

In 1994, HCFA created the Non-Emergency Transportation (NET) Technical Advisory
Group (TAG) to find cost-effective and efficient ways to provide transportation services
under Medicaid and to address the wide range of transportation-related issues that impact
Medicaid. The TAG’s membership is comprised of 10 state members from each of the
HCFA regions. Currently, the TAG is preparing a comprehensive report with
recommendations to HCFA and the Executive Committee of the National Association of
State Medicaid Directors that will address a wide range of issues, including those
discussed in the OIG report. We believe the findings of this group of experts will be the
ideal instrument to facilitate the necessary changes we all seek. The work is scheduled
for completion by the end of June 1997.

In recognition of the need to give states flexibility to provide access to needed medical
care, the Federal statute permits Medicaid transportation services to be provided as either
an administrative activity or an optional covered medical service. In an effort to provide
clarification to states and others, HCFA discussed the policies associated with the
provision of transportation services under Medicaid in different forums, both written and
verbal, including onsite assistance. During several annual State Medicaid Directors’
conferences, HCFA sponsored a workshop for states to share the workings of their NET
programs with others.
Page 2

We agree with the report recommendation regarding the use of brokers as a means to help
manage NET expenditures. Additionally, we believe it would be helpful to accompany
the recommendation with a reminder of the alternative approaches to be aware of when
claiming these costs for Federal matching purposes.



Federal Medical Assistance Percentage (FMAP) - On page 1 of the OIG report, in the
second to last paragraph, the report refers to the FMAP rate as ranging from 50 to
80 percent. We suggest the report reference section 1905(b) of the Social Security Act,
which indicates that the extreme limits for the FMAP range from 50 to 83 percent.

We recommend consistency between paragraph 3 on page 4, and paragraph 4 on page 7;
i.e., show the savings as either $52 million or $54 million, whichever is correct.
 8     .
:    -4I        DEPARTMENT       OF HEALTH & HUMAN SERVICES                                   Office of the Secretary



                                                                                              Washington, D.C. 20201

                                                              FEB 2 I 1997

           To: 	             June Gibbs Brown
                             Inspector General

           From: 	           David F. Garrison
                             Principal Deputy Assistant Secre
                             for Planning and Evaluation                                                         x/ICI -

           Subject:          OIG Draft Report: “Controlling Medicaid Non-Emergency
                             Transportation Costs - CONDITIONALCONCURRENCE
                                                                               &I- Q+ 9 5- &6/5/LJ
           Thank you for the opportunity to review this draft report. The strategies undertaken in the case
           study states to control non-emergency transportation costs in Medicaid are of interest and should
           certainly be shared with the other states.

           I concur with the IG’s report with one condition. The estimate of potential annual savings of
           $100 million if all states reduced their costs by 10 percent is not well-grounded and is probably
           excessive. This reference should be omitted so as to avoid unrealistic expectations for Medicaid
           savings in this area. My criticism of the estimate is based on the following considerations:

           .	        It is unrealistic to expect lo-percent cost reductions in every state, on an annual basis. It
                     is more likely that some states may be able to achieve significant savings in the first year
                     or years that they institute new cost-control measures, rather than on a continuous basis.
                     Depending on circumstances and state practices, other states may not be able to achieve
                     significant savings.

           .	        Relatedly, the $100 million estimate assumes savings in the case study states as well as
                     the others, even though the case study states have probably already achieved most of the
                     cost-reducing effect of their practices.

           .	        Although the case study states were chosen for their exemplary accomplishments, other
                     states may also have practices in effect currently to control their Medicaid spending on
                     non-emergency transportation. To the extent that this is so, the estimate is overstated.

           .	        The report (page 3) offers several caveats about the savings data obtained from the case
                     study states, such as the fact that the data were not validated independently and do not
                     reflect administrative costs incurred by the study states. In light of these limitations, the
                     savings reported in the study states do’not provide a sturdy foundation for the national
                     annual estimate.

           If you have/any questions, please contact Julia Paradise, of my staff, at 6904476 . r:          3
                                                                                                           t=
                                                                                             c;                     ..<J‘
                                                                                                o r;:      s	
                                                                                                mc 	       -        1.1
                                                                                                z-::       N        c-2
                                                                                                m:::       u-l      F
                                                                                                3 <.
                                                                                                I??        -cJ      ;:
                                                                                                    8               2
                                                                                                     c     ig
                                                                                                    --.
                                                                                                     c._   w
                                                                                                     .-.   w
